No.
——— eS

IN THE
Supreme Court of the United States

CHERYL FRITZE,

Petitioner,
v.

NEXSTAR BROADCASTING, INC.,

Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I, a member of this Court in Good Standing,
certify that three (3) copies the petition for a writ of certiorari was served via first
class mail on June 16, 2021 on the following named attorneys of record who have
represented Nexstar Broadcasting, Inc. as attorneys of record at both the District
Court and Circuit Court of Appeals:

Maurice G. Jenkins (Attorney for Nexstar Broadcasting, Inc.)
2000 Town Center, Suite 1650
Southfield, Michigan 48075

Linda Lee Ryan (Attorney for Nexstar Broadcasting, Inc.)
61 Commerce Avenue, S.W., Fifth Floor
Grand Rapids, Michigan 49503

I declare under penalty of perjury that the forgoing is true and correct.

Michael R. Behan
Executed on June 16, 2021 Is/ Acs \
Michael R. Behan*

Gregory A. Przybylo

Behan & Przybylo

4127 Okemos Road, Suite 3
Okemos, Michigan 48864
(517) 347-3500

*Counsel of Record and Member on Court in
Good Standing
